    U.S. Department of the Interior
    Office of Inspector General




               SURVEY REPORT


        PARTNERS FOR WILDLIFE HABITAT
             RESTORATION PROGRAM,
         U.S. FISH AND WILDLIFE SERVICE

                 REPORT NO. 9744302
                   SEPTEMBER 1997




i
             United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL             .
                                    Washington, DC. 20240




TO ..

FROM:


SUBJECT SUMMARY: Final Survey Report for Your Information - “Partners for Wildlife
                  Habitat Restoration Program, U.S. Fish and Wildlife Service”
                 (No. 97-I-1302)

Attached for your information is a copy of the subject final survey report. The objective of
the review was to determine whether the U.S. Fish and Wildlife Service was adequately
administering its Partners for Wildlife Restoration Program.

We found that the Service was accomplishing its Program goals of restoring or enhancing
habitat sites to provide resting and breeding areas for a variety of trust species and that
projects were generally completed as planned. However, we also found that the Service’s
cooperative agreements did not have specific and/or standard provisions on cooperators’
responsibilities; guidance on cost-sharing arrangements was not sufficient to ensure
consistency in the types of costs and in-kind services which were used for matching
purposes; documentation supporting project expenditures was not adequate; and Program
costs and accomplishments were not tracked and reported accurately and efficiently. These
deficiencies occurred because the Service did not provide regional and field office personnel
with adequate policies, guidance, and training to administer the Program. As a result,
cooperative agreements may not be fully enforceable and adequately protect the
Government’s interests; some Program expenditures could not be traced to specific projects;
the Service could not ensure that Program cost-sharing goals were met; and Service resources
were spent unnecessarily on maintaining a tracking and reporting system that was not fully
utilized.

Based on the Service’s response, we considered four of the report’s five recommendations
resolved but not implemented and requested additional information for the remaining
recommendation, which related to the need to establish a standard system for tracking and
reporting Program accomplishments.

If you have any questions concerning this matter, please contact me at (202) 208-5745 or
Mr. Robert J. Williams, Assistant Inspector General for Audits., at (202) 208-5520.


Attachment
                                                                           C-IN-FWS-00 l-96


              United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                                     Washington, D.C. 20240

                                  SURVEY REPORT

Memorandum

To ..       Assistant Secretary for Fish and Wildlife and Parks

From:       Robert J. Williams
            Assistant Inspector

Subject:    Survey Report on the Partners for Wildlife Habitat Restoration Program,
            U.S. Fish and Wildlife Service (No. 97-I-1302)

                                  INTRODUCTION

This report presents the results of our survey of the Partners for Wildlife Habitat Restoration
Program administered by the U. S. Fish and Wildlife Service. The objective of the survey was
to determine whether the Service was adequately administering the Program.

BACKGROUND

The U.S. Fish and Wildlife Service is the principal Federal agency responsible for conserving,
protecting, and enhancing the Nation’s fish and wildlife resources and their habitats. To carry
out these responsibilities, the Service maintains a headquarters office in Washington, DC.;
seven regional offices; and approximately 700 field offices.

Approximately two-thirds of the land in the United States is privately owned and contains
some of the most important fish and wildlife habitats. Since 1987, the Service has been
working in voluntary partnerships with private landowners to restore wetlands and other
important wildlife habitats through the Service’s Partners for Wddlife Habitat Restoration
Program. The purpose of the Program is to: (1) restore and enhance wetlands and other fish
and wildlife habitats and (2) directly involve private landowners in the stewardship of
wetlands and other fish and wildlife habitats. Typical projects undertaken by the Program to
restore and enhance wetlands and habitats include the following: installing water control
structures; plugging ditches; building levees to restore hydrology in drained areas; planting
trees or native vegetation; physically rehabilitating in-stream aquatic habitats; and
protecting/restoring riparian areas through various means, such as fencing to prevent grazing
and removing exotic (nonnative) vegetation. The day-to-day operations, including selecting
and monitoring restoration projects and reporting on Program activities, are performed by the
Service’s field office personnel. The National and Regional Coordinators are responsible for
overall Program guidance and coordination.
The Fish and Wildlife Coordination Act (16 U. S.C. 66 1-666(c)), as amended in 1946, and
the Fish and Wildlife Act of 1956 (16 U.S.C. 742 A-J) authorize the Service to provide
financial and technical assistance to private landowners through voluntary cooperative
agreements for restoration projects. The agreements require landowners to maintain
completed restoration projects for a minimum of 10 years while retaining full control of their
land. In addition, according to the Service’s annual budget justifications, the Service strives
to achieve an average non-Federal cost share of at least 40 percent Erom landowners and other
partners for the Program. The Service has also entered into agreements for habitat
restoration with other Federal agencies, state and local governmental agencies, and industry
and conservation groups.

From fiscal year 1987, when the Program began through fiscal year 1995, the Service entered
into over 14,000 agreements to restore or enhance wildlife habitats on private lands. In fiscal
year 1994, the Service entered into 1,6 19                                        36,000 acres
                                                                                     1995, the
Service entered into 1,448 agreements, restored approximately 54,000 acres of wetlands,
and incurred Program costs of about $10.3 million.

SCOPE OF SURVEY
&.r survey was conducted at the Service’s Southwest Regional Office in Albuquerque, New
Mexico (Region 2); the Great Lakes-Big River Regional Office in Fort Snelling, Minnesota
(Region 3); and selected field offices within these regions (see Appendix 1). The two regions
accounted for 1,387 (45 percent) of the 3,067 agreements Servicewide for fiscal years 1994
and 1995. To accomplish our objective, we reviewed Program activities that occurred during
fiscal years 1994 and 1995, reviewed policies and procedures, observed Program operations
and projects, interviewed administrative and Program personnel, and conducted limited tests
and analyses of project files and reports. We reviewed a total of 101 agreements at the field
offices: 58 agreements initiated during fiscal year 1994 and 43 agreements initiated during
fiscal year 1995. In addition, we contacted officials in the National Office and in the five
other regions listed in Appendix 1 to obtain information on: (1) procedures for monitoring
and tracking Program costs and accomplishments; (2) the types of agreements used; and (3)
cost-sharing practices.

Our survey was made in accordance with the “Government Auditing Standards,” issued by
the Comptroller General of the United States. Accordingly, we included such tests of records
and other auditing procedures that were considered necessary under the circumstances. As
part of our survey, we evaluated the Service’s system of internal controls related to the
processes for awarding and administrating cooperative agreements and monitoring and
reporting Program costs and accomplishments to the extent we considered necessary to
accomplish the audit objective. The internal control weaknesses identified in these areas are
discussed in the Results of Survey section of this report. Our recommendations, if
implemented, should improve the internal controls in these areas. We also reviewed the
Department of the Interior’s Annual Statement and Report to the President and the Congress,
which is required by the Federal Managers’ Financial Integrity Act of 1982, for fiscal years

                                              2
1994 and 1995 and determined that none of the Department’s reported weaknesses were
related to the objective and scope of our survey.

PRIOR AUDIT COVERAGE

Neither the Office of Inspector General nor the General Accounting Office has issued any
reports in the past 5 years that addressed the Service’s P&tners for Wildlife Habitat
Restoration Program.

                            RESULTS OF SURVEY

We found that the U.S. Fish and Wildlife Service was accomplishing its goals of restoring or

through its Partners for Wddlife Habitat Restoration Program. We also found that, based on
our review of 101 Program project files and our visits to 41 restoration projects undertaken
during fiscal years 1994 and 1995 at the two regions reviewed, the projects were generally
completed as planned. However, we found that cooperative agreements lacked specific
and/or standard provisions on cooperators’ responsibilities; guidance on cost-sharing
arrangements was not sufficient to ensure consistency in the types of costs and in-kind
services which were used for matching purposes; documentation supporting project
expenditures was not adequate; and Program costs and accomplishments were not tracked
and reported accurately and efficiently. These deficiencies occurred because the Service did
not provide regional and field office personnel with adequate policies, guidance, and training
to administer the Program As a result, cooperative agreements may not be fully enforceable
and adequately protect the Government’s interests; some Program expenditures cannot be .
traced to specific projects; the Service could not ensure that Program cost-sharing goals were
met; and Service resources were spent unnecessarily on maintaining a tracking a.nd reporting
system that was not fully utilized.

Cooperative Agreements
The Service’s June 18, 1992, guidance states: “Cooperative agreements must secure Federal
restoration investment with a legally enforceable instrument. The duration of the agreement
must be commensurate with the technical and financial assistance provided by the Service, but
in no case will the duration be less than 10 years.” However, we found that the Service’s
June 1992 guidance did not provide sufficient instructions on the terms and provisions to be
included in cooperative agreements; agreements were not prepared for some projects; and
agreements were not modified when additional work was performed.

        Terms and Provisions. Of the 101 agreements we reviewed, 50 did not contain a
suffkient description of the cooperator’s responsibilities and/or the estimated cooperator
costs, and 39 did not clearly describe the work to be performed by the Service and/or the



animals.


                                             3
estimated cost of that work. For example, the Litchfield (Minnesota) Wetlands Management
District in Region 3 used a standard agreement for each of the 15 projects we reviewed. The
agreement did not identifl the specific scope of work to be performed by the Service or the
cooperator, the cooperator’s responsibilities for project maintenance, or any restrictions on
                              property. Instead, the agreement contained only a general
provision which stated:

       The Service . . . shall have the right to (1) [rlestore and maintain those
       wetlands described on attached map by plugging drainage ditches and/or tiles
       and installation of water control structures; (2) [alccess to said tract of land
       by the Service, its contractors, and cooperators for management purposes;
       and (3) [e] stablish vegetative cover on soils disturbed during
       construction/development of the habitat project.

Although the 15 agreements required the Service to be reimbursed for the cost of certain or
all capital improvements if a cooperator terminated the agreement, the lack of specific details
in the agreements regarding the specific project work and project costs could hinder recovery
of costs in the event of project termination.

In addition, the 101 agreements we reviewed did not contain a standard termination provision.
The provisions in these agreements contained various methods for obtaining reimbursement
of Service costs in the event of termination as follows:

       Should this agreement be terminated by the Cooperator within four (4) years
       from the date of any capital improvement as identified above, the Cooperator
       shall reimburse the Service for the cost of these improvements.

       The Cooperator shall reimburse the Service for the cost of all capital
       improvements if this Agreement is terminated by the Cooperator prior to its
       expiration date.

       Ifthe Cooperator terminates the agreement prior to the expiration of its term,
       the Cooperator will reimburse the Service for the cost of the wildlife habitat
       developments on a prorated basis.

We also found that some agreements did not contain provisions that required the cooperator
to: (1) guarantee ownership of the property and warrant that there were no outstanding rights
which interfered with the agreement; (2) agree to file the agreement with the appropriate
county clerk; and/or (3) provide the appropriate tax information for reporting project
expenditures to the Internal Revenue Service. In addition, none of the agreements contained
the signatures of both spouses for property that was owned jointly.

These deficiencies occurred because the Service’s June 1992 guidance did not contain
sufficient details on the provisions to be included in the agreements. To ensure that all
agreements are fully enforceable and adequately protect the Government’s interests, the
Service should develop standard provisions, approved by the Office of the Solicitor, for
inclusion in all cooperative agreements.

         Missing Agreements. Of the 101 projects we reviewed, files for 4 projects, totaling
$3,450, did not contain a cooperative agreement. The respective officials said that for three
of the projects: (1) an agreement was not obtained because of the small dollar amount of the
project; (2) an agreement was not considered necessary because the partner was a state
agency; and (3) the file was “misplaced” (as noted in the field office’s project log). Service
officials could not explain why the fourth agreement was missing. We believe that a formal
agreement should be signed for all projects regardless of the project’s cost or the nature of
the partner’s organization to properly protect the Government’s interests.

        Modifications. The Service did not modifir four agreements to extend the time period
for project maintenance when additional work was performed. These four agreements
required the cooperator to maintain the completed restoration project for a lo-year period.
However, when additional work was performed on the projects up to 4 years after the project
completion date, the agreements were not modified to describe the additional work or to
extend the lo-year period for project maintenance.

Cost Sharing
The Service’s annual budget justifications state that the general goal of the Program is to
secure an average non-Federal cost share of at least 40 percent, which could be in the form
of cash or in-kind services. However, the Service had not issued guidance on the types of
costs or in-kind services that could be included in the cooperators’ share of project costs. As
a result, the two regions we reviewed were not consistent in the types of costs or in-kind
services that were classified as the partners’ contributions. For example, Region 2 allowed
the partners to include the loss of property use and/or project operation and maintenance costs
as part of their in-kind services, whereas Region 3 did not allow these items for cost-sharing
purposes. In fiscal year 1995, partners in Region 2 were credited for contributing as much
as $105,000, or 85 percent, on five projects that had recorded costs totaling $123,880.
However, if credits totaling $73,000 for operation and maintenance costs and the loss of land
use were excluded, the partners’ contributions would be $32,000, or 63 percent, of the
remaining project costs of $50,880. Without adequate cost-sharing criteria, the Service
cannot properly determine whether the Program’s cost-sharing goal is met or compare the
regions’ cost-sharing accomplishments.

Program Expenditures
Of the 101 projects reviewed, files for 43 projects, totaling about $22 1,000, did not contain
supporting receipts or appropriate documentation to determine whether the expenditures were
related to the projects. Chapter III, Section A.9, of the FWS (Fish and Wildlife Service)
Agreements Handbook (Region 2) requires that all invoices be accompanied by supporting
receipts and that the receipts be retained in the Project Officer’s file. However, the field
offices in Region 2 did not follow the Region’s guidance, Region 3 did not have written
guidance on documenting project costs, and neither region had implemented adequate controls

                                              5
to monitor and account for Program funds spent on habitat restoration projects. For example,
Region 3 field offices hired contractors to perform work on several projects in the same
geographical area. However, the invoices submitted by the contractors (none of which were
included in the project files) did not describe the specific work performed or the costs incurred
on each of 18 projects, totaling $20,500, of the 56 projects reviewed in Region 3. Program
officials said that estimates were used to derive the costs incurred on each of the 18 projects,
In addition, there was no documentation in the files supporting the reported project costs for
23 projects, totaling $198,000, of the 45 projects reviewed in Region 2 and for 2 projects,
totaling $2,000, of the 56 projects reviewed in Region 3. As a result, there was little
assurance that the funds were spent efficiently and that project costs were reported accurately.

Program Accomplishments
The Service was not tracking and reporting its Program accomplishments accurately or
efficiently. Although the Service had designated the International Tracking System* for these
purposes, one of the seven regions did not input data into the System, and only three of the
regions used the System to report Program accomplishments to the Program’s National
Office. Further, the National Office used hard copy reports submitted by the seven regional
offices to prepare its Servicewide reports instead of extracting information directly from the
System. Consequently, the Service was using resources to maintain a data base that was not
fully utilized.

Field personnel stated that they did not use the System because they did not have query
capability and/or they had not received sufficient training on preparing project accomplishment
reports. Officials at the National Office stated that they used hard copy reports from the
regions because the needed data could not be easily retrieved from the System and the
System’s data were not completely accurate. (Regional Program Coordinators said that the
System’s data were about 80 percent accurate.) According to these officials, the System was
not designed to record and track project expenditures.

Based on limited tests of System data at Region 3 field offices, we found that the cost data
in the files were different f?om the cost data in the System for 55 of 56 projects reviewed. For
example, costs of only $4,300 were recorded in the System for the 13 projects we reviewed
at the St. Cloud Private Lands Office, whereas documentation in the files indicated that a total
of about $20,000 was spent on these projects. Also, none of the files for the 18 projects we
reviewed at the Lit&field Wetlands Management District contained documentation to support
the $37,750 recorded in the System for these projects.




%he International Tracking System is an automated data base that was initially developed for use in other Service
programs to simp@ tionnation management and to provide consistent, reliable, and timely inConnation on habitat
accomplishments.

                                                        6
Recommendations
We recommend that the Director, U. S. Fish and Wildlife Service:

        1. Develop standard provisions for cooperative agreements, approved by the Office
of the Solicitor, which ensure that all cooperative agreements are fully enforceable and
adequately protect the Government’s interests.

        2. Ensure that cooperative agreements are prepared and signed for all Program
projects; clearly describe the scope of work, including the responsibilities and related costs,
for both the Service and the cooperator; and are modified to extend the time period for project
maintenance when additional project work is performed after the original project is completed.

       3. Ensure that project files contain adequate documentation to fully support project
expenditures.

       4. Develop policies and guidance on the types of costs that qualify for cost-sharing
purposes.

         5. Reevaluate the use of the International Tracking System as the tracking and
reporting system for the Program and either modify the System to adequately serve Program
needs or establish a new system and/or procedures for accurately and efficiently tracking and
reporting Program results. The Service should also ensure that adequate training is provided
to personnel on the use of the selected system.

U.S. Fish and Wildlife Service Response and Office of Inspector General
Reply
The September 12, 1997, response (Appendix 2) from the Director, U.S. Fish and Wildlife
Service, indicated concurrence with all five recommendations. Based on the response, we
consider the recommendations resolved but not implemented.               Accordingly, the
recommendations will be referred to the Assistant Secretary for Policy, Management and
Budget for tracking of implementation, and no further response to the Office of Inspector
General is required (see Appendix 3). The Service also provided comments on the text of the
report, which we have considered and incorporated as appropriate.

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, actions taken to implement audit
recommendations, and identification of each significant recommendation on which corrective
action has not been taken.

We appreciate the assistance of Fish and Wildlife Service personnel in the conduct of our
audit.
                                                          APPENDIX 1


       OFFICES VISITED AND/OR OFFICIALS CONTACTED

                                             .
         Offices Visited                Location

                                Albuquerque, New Mexico
                                Albuquerque, New Mexico
                                Arlington, Texas




        Officials Contacted              Location

National Coordinator            Arlington, Virginia
National Database Manager       Arlington, Virginia
Region 1 Regional Coordinator   Portland, Oregon
Region 4 Regional Coordinator   Atlanta., Georgia
Region 5 Regional Coordinator   Hadley, Massachusetts
Region 6 Regional Coordinator   Denver, Colorado
Region 7 Regional Coordinator   Anchorage, Alaska
                          ,                                                              APPENDIX 2
                                                                                         Page 1 o f 4

                        C’nited                                            11lterior


 .\ Tl tL t)fKke( TOK
 .IlL.IFE SEK\l( .E


In Reply Refer To:
                                                                 m    l219En
FWS/DHC/BHR



Memorandum


To ..                   Assistant Inspector General for Audits
                        Office of Inspector General

From:                   Director

Subject:                Response to Draft Survey Report on the Partners for Wildlife Habitat Restoration
                        Program (Assignment No. C-IN-FWS-001-96)

This responds to your request for comments on the subject Draft Survey Report dated July 28,
1997. The Fish and Wildlife Service appreciates this opportunity to provide additional input to
the survey and anticipates substantial improvement in delivery of the Partners for Wildlife
program as a result of the survey and follow-up actions.

We offer the following comments for your use in finalizing the survey report.

General Comments

Service personnel at the Field, Regional, and Washington Office level worked closely with your
stain conducting the survey and in preparing the draft report. The Service, therefore, is in
general agreement with the description of the Partners for Wildlife Habitat Restoration program
and the findings of the draft report. We are currently in the process of developing program policy
and field guidance to respond to many of the draft report’s recommendations and to implement
other necessary program modifications. The major tools being developed to address this need
consist of a Director’s Order on Procedures and Contractual Instruments for Habitat
Development Projects (currently in the finalization stage), and a Partners for Wildlife program
guidance document on Financial and Technical Assistance for Fish and Wildlife Habitat
Development on Private Lands (draft currently under review for comment by our Regional
Offices).
        .
aeafic CommenQ

We offer the following specific comments on sections of the draft report.
                                                                                    APPENDIX 2
                                                                                    Page 2 of 4



Page 2, Paragraph 1. The draft report refers to a number of typical habitat restoration practices
undertaken to restore fish and wildlife habitats. Included in this list is installation of riprap to
prevent erosion in riparian areas. While the Service is not precluded Corn using riprap to stabilize
eroding riparian areas, this practice is very rarely used in favor of more natural methods, such as
installation of tree root wads and planting riparian vegetation. We recommend deleting the
reference to riprap as a “typical” Partners for Wildlife riparian habitat restoration practice.

Page 4, Paragraph 1. The report finds that the Service’s June 1992 habitat restoration guidance
does not include sufficient instructions on the terms and conditions of cooperative agreements.
We agree that the guidance does not provide specifics on the structure of cooperative agreements.
Consequently, the Regional Offices have developed different, although similar, landowner
cooperative agreement formats. In recognition of the need to provide some consistency in
agreement format, as well as legal sufficiency, we are in the process of developing a standard
agreement for use nationwide.

Page 5, Paragraph 3 (Missing Agreements). This paragraph indicates that some projects were
completed without the existence of formal agreements with the landowners and, in some cases,
agreements were not pursued by the Service due to the small amount of funds spent on project
development. Current policy dictates that all financial assistance provided to private landowners
for habitat restoration must be done under signed cooperative agreements. The policy the Service
is developing (referenced in the General Comments section above) will provide additional
guidance to reiterate this requirement.

Page 5, Paragraph 5 (Cost Sharing). We concur with this paragraph’s finding that the Service
has not provided sufficient guidance on what landowner contributions are to be considered cost-
share. The new policy the Service is developing will clari@ that income foregone and other
opportunity costs are not considered cost-share for purposes of this program.

Page 5, Paragraph 6 (Program Expenditures). This paragraph indicates that some project
files did not adequately document all project expenses. To address this concern, we are
developing guidance and policy requirements to help ensure that adequate records are being kept
on all Federal outlays in support of habitat restoration projects. In addition, we are including a
process in the forthcoming policy to ensure that program funds are spent by the Service on
activities related to delivery of habitat restoration projects on the ground.

Page 6, Program Accomplishments. This section refers to the variability in the use and utility of
the International Tracking System to report program accomplishment. We are aware of the
problems that some Regional Offices have encountered in use of the ITS and have been exploring
ways to address program tracking needs as well as future tracking requirements under the
Government Performance and Results Act. In the interim, we are preparing policy guidance that
allows the continued use of ITS at the Regional level, or the development of alternate methods of
tracking accomplishments, provided that adequate data on the program Performance Measures (as
modified by policy memorandum dated December 3, 1996) are submitted to the Washington
Office at the end of each fiscal year.




                                               10
                                                                                   APPENDIX 2
                                                                                   Page 3 of 4


Regardless of the accomplishment tracking system used (ITS or alternate method), tracking
habitat restoration accomplishments will not include tracking program expenditures Financial
accounting is reported under other Service accounting systems.

  esponse to RgcommendationS

Recommendation 1. This recommendation suggests that the Service develop standard provisions
for cooperative agreements to ensure protection of the Federal investment in habitat restoration
projects. The Service’s Divisions of Habitat Conservation and Contracting and General Services
have developed a draft Director’s Order that will clarify requirements for assistance agreements
for conducting habitat restoration work on private lands. A standardized cooperative agreement,
which has been reviewed by the Solicitor’s Office and will be used in the Partners for Wildlife
program, is included in that draft Director’s Order. The Service anticipates that this Director’s

Services, has the lead for finalization of that document.

Recommendation 2. This recommendation is to ensure that projects are conducted under
cooperative agreements that document project costs and responsibilities of all parties. During the
first two weeks of June 1997, the Service convened an inter-Regional team of Partners for
Wildlife field and Regional coordinators to help the Washington Office develop and update policy
guidance for the Partners for Wildlife program. That guidance, expected to be finalized by
October 15, 1997, will clarify the requirement that cooperative agreements be signed by the
landowner prior to project initiation, including modifications to existing agreements to reflect any
additional work not documented in original agreements. The Chief Division of Habitat
Conservation, has the lead for finalization of this guidance document.

In addition, the Director’s Order described in the response to Recommendation 1 above will
include guidance on the requirement to document the scope of work for every project and to
articulate in the agreement project costs and responsibilities to be borne by each party.

Recommendation 3. This recommendation is to ensure that project files contain adequate
documentation to fully support project expenditures. Both the forthcoming Director’s Order and
Partners for Wildlife policy document described above will include guidance that ensures that
project files contain documentation to fully support project expenditures. Specifically, a cost-
benefit certification form will be included as an attachment to the standard cooperative agreement
to enable project managers to ensure that this information is documented for every project.

Recommendiztion 4. This recommendation is to develop guidance on the types of costs borne by
project partners that are considered cost-share. As mentioned previously, the forthcoming
Partners for Wildlife policy will provide criteria for determining what landowner contributions are
considered cost-share. Specifically, costs directly associated with habitat restoration work

        ‘If the DO is not finalized by October I, 1997, a separate policy directive originating from
the Division of Habitat Conservation transmitting the standardized agreement format for the
Partners for Wildlife Program will be issued.


                                               11
                                                                                   APPENDIX 2
                                                                                   Page 4 of 4



(including in-kind services) are considered cost-share; income foregone and other opportunity
costs are not considered cost-share.

Recommendation 5. This recommendation proposes to either mod@ the existing International
Tracking System, or develop a new system or procedures for accurately tracking program habitat
restoration accomplishments. The Service, along with all other Federal agencies, is in the process
of developing a strategic plan to respond to the requirements of the Government Performance and
Results Act. Performance measures used for GPIU and those typically used for the Partners for
Wildlife program may ultimately differ substantially. Any revision to the ITS would need to
incorporate performance measures for both purposes.

The Service acknowledges the poor performance of the ITS in tracking Partners for WddlXe
accomplishments at the national level. This largely results from a lack of staf5ng at the Regional
level to maintain the system and adequately manage the data. However, some Regional Offices
have been able to dedicate staffto maintain the system and data integrity at the Regional level.
Therefore, the Service will include guidance in the forthcoming Partners for Wildlife policy that
will require the Regional Offices to respond to the current performance measures at the end of
each fiscal year, regardless of whether they continue to use the ITS to track accomplishments, and
to ensure that Service field stti are adequately trained on use of whatever tracking system is
used.



The Service appreciates the opportunity to work with your office in improving the delivery and
integrity of the Partners for Wildlife program. Your survey of the program and the
recommendations provided were instrumental in our efforts to develop policy to guide the
program into the future. We will provide you with copies of the revised Partners for Wildlife
policy and the new Director’s Order referenced above when they are finalized. We also intend to
conduct a national training session of State and Regional Coordinators in early fiscal year 1998 to
ensure that field personnel delivering the program are adequately trained in program procedures
and requirements.

Please contact the Assistant Director, Ecological Services (Attn: Chief, Division of Habitat
Conservation) at 703/3 58-2 16 1 if you need additional information. We look forward to receiving
the final Survey Report.




                                                             DIRECTOR




                                              12
                                                        APPENDIX 3


       STATUS OF AUDIT REPORT RECOMMENDATIONS
Finding/Recommendation
       Reference                   Status        Action Required

          l-5            Resolved; not      No fkther response to the
                         implemented.       Office of Inspector
                                            General is required. The
                                            recommendations will be
                                            referred to the Assistant
                                            Secretary for Policy,
                                            Management and Budget
                                            for tracking of
                                            implementation.




                                     13
               ILLEGAL OR WASTEFUL ACTMTIES
                   SHOULD BE REPORTED TO
             THE OFFICE OF INSPECTOR GENERAL BY:


Sending written documents to:                                Calling:


                    Within the Continental United States

U.S. Department of the Interior                        Our 240hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                    l-800-424-508 1 or
Mail Stop 5341                                         (202) 208-5300
Washington, D.C. 20240


                                                       TDD for hearing impaired
                                                       (202) 208-2420 or
                                                       l-800-354-0996


                   Outside the Continental United States


                                 Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
1550 Wilson Boulevard
Suite 410
Arlington, Virginia 22209


                                North Pacific Reaion

U.S. Department of the Interior                        (700) 550-7428 or
Office of Inspector General                            COMM 9-011-671-472-7279
North Pacific Region
238 Archbishop F.C. Flores Street
Suite 807, PDN Building
Agana, Guam 96910
